           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   SUSPENDED AND NONWORK WAGES
       IN THE SOCIAL SECURITY
     ADMINISTRATION’S PAYROLL


    March 2006   A-03-05-15087




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

      Conduct and supervise independent and objective audits and
      investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
      operations.
      Review and make recommendations regarding existing and proposed
      legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
      problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

      Independence to determine what reviews to perform.
      Access to all information necessary for the reviews.
      Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         SOCIAL SECURITY
MEMORANDUM

Date:       March 13, 2006                                                            Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Suspended and Nonwork Wages in the Social Security Administration’s Payroll
        (A-03-05-15087)


        OBJECTIVE

        Our objective was to determine whether Social Security Administration (SSA)
        employees are working under nonwork Social Security numbers (SSN) and/or
        names/SSNs that do not match the names/SSNs in SSA’s records.

        BACKGROUND
        Title II of the Social Security Act requires SSA to maintain records of wage amounts
        employers pay to individuals.1 Each year, employers must send Wage and Tax
        Statements (Form W-2) to SSA to report the wages and taxes of their employees for the
        previous calendar year. The Forms W-2 include the employees’ names, SSNs, and the
        Employer Identification Number (EIN).2 SSA compares the names and SSNs on the
        Forms W-2 to the Numident.3 Wages reported on Forms W-2 containing names and/or
        SSNs that do not match SSA’s records cannot be posted to an individual’s earnings
        record in SSA's Master Earnings File (MEF).4 Instead, these wages are placed in
        SSA’s Earnings Suspense File (ESF)—a repository for unmatched wages. As of
        October 2004, SSA’s ESF contained approximately 246 million wage items totaling
        about $463 billion in wages related to Tax Years (TY) 1937 through 2002 that could not




        1
          42 United States Code (U.S.C.) § 405(c)(2)(A).
        2
          The EIN is a 9-digit number assigned by the Internal Revenue Service (IRS) to sole proprietors,
        corporations, partnerships, estates, trusts, and other entities for tax filing and reporting purposes.
        3
          The Numident is a record of identifying information (such as name, date of birth, date of death, mother’s
        maiden name, etc.) provided by the applicant on his or her Application for a Social Security Number
        (Form SS-5) for an original SSN and subsequent applications for replacement SSN cards. Each record is
        housed in the Numident master file in SSN order.
        4
          The MEF contains all earnings data reported by employers and self-employed individuals. The data is
        used to calculate the Social Security benefits due an individual with an earnings record.
Page 2 - The Commissioner
be posted to individual earnings records.5 In TY 2002 alone, the ESF increased by
9 million wage items and by $56 billion in wages.

Wages reported on Forms W-2 with nonwork SSNs are recorded on the Nonwork Alien
(NWALIEN) file.6 SSA issues nonwork SSNs to individuals who lack Department of
Homeland Security (DHS) work-authorization but have valid nonwork reasons for the
SSNs.7 Section 414 of the Illegal Immigration Reform and Immigrant Responsibility Act
of 1996 requires SSA to provide DHS information for individuals working under nonwork
SSNs.8 This file is sent annually to DHS, 6 to 18 months after the earnings occur. The
annual NWALIEN file includes earnings for about 550,000 noncitizens working under
nonwork SSNs.

Processing SSA’s Payroll

Beginning with TY 1998, the Department of Interior’s (DOI) National Business Center
(NBC) started processing SSA’s payroll through its Federal Personnel Payroll System.
NBC provides numerous services to the Federal sector to include personnel/payroll,
finance/accounting, and transportation/travel. SSA is among over 20 Federal agencies
receiving payroll services from NBC. As of Fiscal Year 2004, SSA’s payroll included
about 64,000 full and part-time employees.9

RESULTS OF REVIEW
Of the 62,000 employees who worked at SSA during TYs 1999 through 2002, we found
94 employees had wages posted to SSA’s NWALIEN file and ESF. Specifically,
33 employees with about $2.6 million in wages10 had worked during the 4-year period
with nonwork SSNs that were assigned in TYs 1974 to 1991. As of July 2005, 17 were
current employees whose work-authorization status still appeared to be unauthorized to
work in SSA records (whereas the other 16 either had SSNs indicating authorization to
work or were no longer working at SSA). In addition, we identified 61 employees,
representing about $184,000 in wages,11 whose wages were placed in the ESF
because (1) the employees appeared to be deceased in SSA’s records, (2) the
employees disclaimed the wages, or (3) the reported names and/or SSNs did not match
SSA’s records. At the time of our review, three were current employees who still had
wages in the ESF. Finally, we confirmed with the Agency staff that neither SSA nor DOI
are verifying SSA employees’ identity or work-authorization status through SSA’s

5
  These wages represent Federal Insurance Contributions Act (FICA) wages (26 U.S.C. § 3101 – § 3128).
6
  See Appendix B for a flowchart of the NWALIEN file process.
7
  SSA assigns nonwork SSNs to noncitizens if (1) a Federal statute or regulation requires that the non-
citizen provide his/her SSN to received a benefit or service to which he or she is entitled to or
(2) a State or local law requires the noncitizen who is legally in the U.S. to provide his/her SSN to get
public assistance benefits to which the noncitizen has otherwise established entitlement and met all other
requirements.
8
  Public Law Number (Pub. L. No.) 104-208 Div C, Title IV, Subtitle B, Section 414(a).
9
  SSA’s Fiscal Year 2004 Performance and Accountability Report.
10
   These wages represent total compensation, which includes wages, tips, and other compensation.
11
   This figure represents FICA wages.
Page 3 - The Commissioner
employee verification programs. If the Agency had taken advantage of its verification
programs, it could have identified a number of these payroll issues. Although only a
relatively small percentage (.15 percent)12 of SSA employees had wages posted to the
NWALIEN file and ESF, SSA should be a model for the employer community and
ensure that it knows the identity and work-authorization status of its employees since
they may have access to the Agency’s programmatic and sensitive information as well
as its facilities.

                         Table 1: Status of SSA Employee Cases
                                          Current SSA         Former SSA
                Condition                 Employees           Employees             Total
     Wages reported under a
                                                24                  9                  33
     Nonwork SSN
     Wages suspended in
                                                 3                  58                 61
     the ESF
                   Total                        27                  67                 94


WAGES REPORTED WITH NONWORK SSNS

For TYs 1999 to 2002, we found that 33 current and former SSA employees were
working under SSNs that were originally issued as nonwork SSNs. SSA submitted
86 wage items for these employees totaling about $2.6 million in wages for the 4-year
period. The annual earnings for the employees ranged from about $32 to $74,000 and
the median was about $29,000.13 Further, we found that the 33 employees were born in
17 different countries with the majority (18 individuals) born in 4 countries -- Taiwan,
Iran, Nigeria, and the Philippines (see Appendix D).

We reviewed SSA’s Numident and Personnel records as of July 2005 for the
33 employees to determine whether their work-authorization status had changed since
their wages were placed in the NWALIEN file in TYs 1999 to 2002. As shown in
Table 2, we found that 25 of the 33 employees were listed as unauthorized to work
within SSA’s records during our period of review and 8 employees were issued
replacement Social Security cards in TYs 2001 to 2005 that indicated they were work-
authorized.14 Of the 25 employees who appeared to be unauthorized to work, 17 were
still working at SSA in various regional offices as well as headquarters components.




12
   During TYs 1999 to 2002, SSA employed more than 62,000 employees for each year. Therefore, at
most the 94 employees with wages posted to the NWALIEN file and ESF represented .15 percent of the
Agency’s payroll. The administrative data was obtained from SSA’s Executive and Management
Information System.
13
   The average annual earnings for these employees were about $30,000.
14
   We did not confirm with DHS that it had issued the individuals work-authorization documents.
Page 4 - The Commissioner
After referring these 17 cases to SSA staff, 15 of the employees have updated their
information in SSA’s records and now have a Social Security card showing them as
authorized to work.15

                             Table 2: Work-Authorization Status for
                             33 Current and Former SSA Employees
                    Work           Current SSA          Former SSA
                    Status         Employees            Employees                Total
                Unauthorized              17                    8                  25
                 Authorized                7                    1                    8

                     Total                24                    9                  33

Changing Work-Authorization Status

As shown by the status change for the eight employees, SSA will issue work-authorized
SSNs to noncitizens who were originally issued nonwork SSNs when the Agency learns
DHS has changed their work status. However, SSA does not always learn of such
changes because DHS does not routinely inform SSA when it changes a person’s
employment status from unauthorized to authorized. Further, noncitizens do not always
report changes in their work-authorization status to SSA. We learned that prior to 2002,
SSA did not explicitly request that noncitizens report their change in status so they
could be issued a work-authorized SSN.16 SSA assigned the original nonwork SSNs as
well as issued replacement cards to the 33 employees from 1974 to 1991, at least
14 years ago. Therefore, they may not have been advised to report changes to their
work-authorization status.

Employment Eligibility Verification Forms

The Immigration Reform and Control Act of 1986 (IRCA)17 requires SSA, as well as all
employers, to certify whether their employees are authorized to work in the
United States and makes it illegal for employers to knowingly hire unauthorized


15
   For the remaining two employees, one employee has yet to update their work authorization status and
the other is no longer an SSA employee.
16
   Today a noncitizen receives an instructions from SSA with the issued Social Security card, which states
“You should contact us to update your Social Security number records if your name, your U.S. citizenship
status, or your status as an alien in the U.S. changes. You will need to file an application for a corrected
Social Security card and provide proof of your identity and we may request certain other evidence
supporting the change....If you are an alien without permission to work in the U.S., your Social Security
card will be marked ‘NOT VALID FOR EMPLOYMENT.’ We will notify U.S. immigration officials if you use
the number to work.”
17
   Pub. L. No. 99-603, 8 U.S.C. 1324a.
Page 5 - The Commissioner
noncitizens.18 Under this Act, employers must use the DHS issued Employment
Eligibility Verification Form (Form I-9) to certify an employee’s work-authorization. SSA
hired the 33 employees from 1995 to 2002 and therefore was required to complete the
Form I-9 for these employees. However, the SSN card is only one of many
documents19 that can be presented, so an employee does not need to submit a
nonwork Social Security card, which would clearly show the label “NOT VALID FOR
EMPLOYMENT” prohibiting its use for work.20 Therefore, it is possible that the
25 employees who appeared to be unauthorized to work in SSA records were in fact
authorized to work at the time they were hired and provided the appropriate work-
authorization documents to Human Resources, but failed to update their work status
information with SSA.

WAGES PLACED IN THE EARNINGS SUSPENSE FILE

Our review found that 61 employees, of which 3 were still working at SSA, had
94 wage items placed in the ESF. These items totaled about $184,000 in wages and
ranged up to about $53,000 in annual earnings. SSA placed these items in the ESF
because (1) the employees appeared to be deceased in SSA records—Earnings After
Death (EAD), (2) the employees disclaimed the wages—Scrambled Wage Earnings
Discrepancy (SWED), or (3) the reported names/SSNs did not match SSA records.
However, SSA has resolved 19 of the 61 cases involving deceased individuals or
name/SSN mismatches, including two of the three cases related to current employees.

                        Table 3: Reason for Suspended Wage Items
                                   Current SSA          Former SSA
                   Reason          Employees            Employees               Total

                EAD                       1                    54                 55
                SWED                      1                      2                  3
                Mismatch
                Name/SSN                  1                      2                  3

                Total                     3                    58                 61



18
   IRCA also states that, as long as: (1) an employee’s documents are allowed by law; (2) appear to be
genuine on their face; and (3) relate to the person, the documents should be accepted. The employer is
to maintain a DHS-issued Employment Eligibility Verification Form (Form I-9) for each employee up to
3 years.
19
   The Form I-9 presently lists up to 25 types of documents issued by various Federal, State, and local
agencies that are acceptable for completing the Form I-9.
20
   As we noted in our September 2001 report, Management Advisory Report: Review of Service Industry
Employer with Wage Reporting Program (A-03-00-10022) the variety of acceptable identification may
discourage employers from verifying these documents. Acceptable records include but are not limited to:
(1) DHS identity and work-authorization documents; (2) U.S. passports; (3) Social Security cards;
(4) State and local government records; and (5) records from schools, medical facilities, and the military
services.
     Page 6 - The Commissioner
     Earnings After Death

     SSA assigned an EAD indicator in the ESF to 55 employees, including 1 current
     employee, representing 87 wage items totaling about $85,800 in wages. SSA assigns
     this indicator as part of the validation of the Annual Wage Reporting process. SSA
     reviews the Numident to determine whether a date of death is present and if the wages
     were reported after the year of death. We reviewed SSA records and found the
     following.

     •   For 37 former employees (37 wage items), the wages were reported up to 6 years
         after death. Through discussions with SSA staff, we were advised that these cases
         may pertain to settlement agreements.21 However, as we noted in our August 2002
         report, Effectiveness of SSA’s Earnings After Death Process (A-03-01-11035),
         wages paid the year after death should be reported as miscellaneous income on an
         IRS Miscellaneous Income Form 1099 rather than wages on a Form W-2.

     •   For 17 former employees (49 wage items), it appears that SSA corrected the
         reporting errors by filing a corrected wage report, known as a Corrected Wage and
         Tax Statement (Form W-2c). However, the original Form W-2 and the Form W-2c
         will remain in the ESF because these items cannot be removed from the ESF and
         reinstated to the individuals’ earnings record.22

     •    For one current employee, SSA posted her TY 2002 wages in the ESF although no
         date of death was present on Numident record. It is possible that an erroneous date
         of death was present on the Numident at one time, but we could not confirm this fact
         since SSA’s system does not establish an audit trail when a date of death is
         removed from the record. The employee has wages posted to her earnings record
         for subsequent TYs. We informed SSA staff about this discrepancy and they have
         since reinstated the wage item to the individual’s earnings record.




21
   In November 1996 and July 1998, SSA and the American Federation of Government Employees
(AFGE) entered into settlement agreements resolving several grievances filed by the AFGE under the
Fair Labor Standard Act regarding “suffer or permitted” overtime. The November 1996 agreement
covered SSA Headquarters Office employees represented by AFGE local 1923. Eligible employees
received a one-time payment in settlement of their claim for the period covering from 1982 through 1996.
The employees were eligible to appeal this payment and present evidence that they were entitled to a
greater payment. For the July 1998 agreement, SSA bargaining unit employees (current, former, or their
survivors) who met the applicable criteria were eligible to receive a settlement payment for the period
beginning in December 1981 until the time of payment. According to SSA staff, payments made under
these settlement agreements were paid in TYs 1998 through 2000.
22
   In our August 2002 report, Effectiveness of SSA’s Earnings After Death Process (A-03-01-11035), we
recommended that the Agency remove from the ESF all wage items related to employees whose deaths
are confirmed by employers. However, SSA stated that it is the Agency’s policy not to remove items from
the ESF if they cannot be posted to an individual’s MEF Record and that there is no mechanism for
simply deleting items from the ESF.
Page 7 - The Commissioner
Scrambled Wage Earnings Discrepancy

SSA assigned a SWED indicator in the ESF to three employees, including one current
employee, representing four wage items totaling about $85,600 in wages. SSA assigns
this code when wages or self-employment income for one wage earner has been
posted to another wage earner's record or the individual notifies SSA or the IRS23 that
he/she did not earn the wages. We reviewed SSA’s records and found the following.

•    For two former employees, representing two wage items, it appears they disclaimed
     the wages paid by SSA. In both cases, the employees were in a leave without pay
     status during their last year of employment with SSA. One of the individuals
     disputed the wages when she filed for disability benefits. We referred these cases to
     SSA for further review.

•    For one current employee, representing two wage items, the case may involve
     potential SSN misuse. It appears that two individuals were using the same SSN to
     work and one of these individuals disputed the wages with the IRS. Upon receiving
     notification from the IRS, SSA removed wages reported by several employers
     including SSA wages from the numberholder’s earnings record. We referred this
     case to our Office of Investigations for further review.

Mismatched Names and Social Security Numbers

We identified three employees, including one current employee, who had about $13,000
in wages that were placed in the ESF because the name and/or SSN combinations did
not match SSA records. We reviewed SSA’s records and found the following.

 •   For one former employee, it appears she may have used an SSN that did not
     belong to her. The employee, who was hired under the stay-in-school program and
     worked for 1 month, used the SSN of a 3-year old. Using the information contained
     in the employee’s file, we queried SSA’s Alpha-Index File24 and were not able to
     locate an SSN that had been assigned to the employee. We referred this case to
     SSA for review.

 •   For one former employee, the first and middle name matched SSA records, but the
     last name was not the same. It appears that the employee indicated the name
     change on his Form SS-5, but SSA failed to update his Numident record with this
     information. We informed SSA of the discrepancy.


23
    SSA receives an IRS/SSA Wage Worksheet (Form 9409) from the IRS when a taxpayer disputes
wages. The form also includes the steps taken by the IRS to resolve the issue. We discuss this issue
further in our March 2003 report, The Social Security Administration’s Processing of Internal Revenue
Service Overstated Wage Referrals (A-03-02-22068).
24
    The Alpha-Index File maintains identifying information of each SSN numberholder. The system allows
for the grouping together, in one code group, all surnames which have the same basic consonant sounds.
The Alpha-Index File is a useful tool that is available to SSA personnel to locate an individual’s SSN when
it is unknown.
Page 8 - The Commissioner
 •   For one current employee, it appears SSA improperly formatted the employee’s
     name on the Form W-2. The first and last names were recorded in the data field
     used to report the last name. SSA became aware of the problem and reinstated the
     wages to the individual’s earnings record.

VERIFICATION OF IDENTITY AND WORK-AUTHORIZATION STATUS

SSA has front-end controls in place, such as employee background investigations, to
validate the identity of newly-hired employees. SSA and DOI can also use various
employee verification programs to detect potential identity and work-authorization
issues for new and existing employees.

Suitability Background Investigations

SSA conducts suitability background investigations on most new employees25 as part of
the hiring process.26 The type of background investigation depends upon the position’s
risk designation—Public Trust or National Security. According to SSA staff, about
90 percent of SSA’s positions are designated as Public Trust, non-sensitive or low risk
and require a National Agency Check and Inquiry background investigation. This type
of investigation involves a Federal Bureau of Investigation (FBI) fingerprint and name
check for any possible prior criminal record; check of military records; check of former
employers; and verification of education.27 National Security positions require more
extensive National Agency Checks as well as additional reviews, such as credit checks.
It is possible that the background investigations may identify instances where the
individual (1) lacks proper work-authorization and/or (2) is misusing an SSN.

Employee Verification Program

SSA administers or participates in a number of employee verification programs, yet the
Agency does not use these programs to verify its own employees. SSA’s employee
verification programs include:

•    Employee Verification Program—an electronic program available to all employers to
     ensure their employees names and SSNs are valid “before” the employer submits
     their Form W-2s to SSA;28


25
   For example, student interns do not always require a background check.
26
   Federal agencies are now required to meet the President Directive, Policy for a Common Identification
Standard for Federal Employees and Contractors (HSPD-12), dated August 2004. This directive requires
that all Department and Agency heads conduct background investigations of current employees and
contractors who have access to federally-controlled facilities and/or information systems. These
investigations must be completed by October 2008.
27
   The National Agency Checks include Security/Suitability Investigations Index, Defense Clearance and
Investigation Index, FBI Name Check, and FBI National Criminal History Fingerprint Check. The National
Agency Check with Written Inquiries includes all of the National Agency checks plus searches of records
covering specific areas of an individual’s background during the past 5 years.
28
   See Appendix E for more details about the employee verification programs.
Page 9 - The Commissioner
•    Social Security Number Verification Service—an on-line program that enables
     employers and submitters to verify employees names and SSNs with information in
     SSA records; and
•    Basic Pilot—a joint effort between SSA and DHS to assist employers with verifying
     newly-hired employees’ authorization to work in the United States.

We found that neither SSA nor DOI, SSA’s payroll provider, has taken advantage of the
employee verification programs, which may identify discrepancies not discovered during
background investigations. According to SSA staff, the individuals responsible for hiring
are not required to use these programs and may not be aware of their existence. SSA’s
use of its own verification programs could (1) assist with the hiring process by verifying
the employees’ identities and work-authorization status, (2) ensure successful
processing of its annual wage reports submissions and the proper crediting of
employees’ earnings records, and (3) demonstrate to the employer community that it is
proactive in verifying its own payroll. Further, if the Agency would have taken
advantage of these verification service programs, it could have identified some of the
wage items reported with nonwork SSNs, SSNs of deceased individuals, and/or
names/SSNs mismatches.

UPDATING PERSONNEL RECORDS

We found that the personnel records for 4 of the 24 current and former SSA employees
were not updated in SSA’s personnel records to reflect the corrected SSNs used to post
the employees wages to their earnings record. As of October 2004, 24 employees,
representing 27 wage items, had wages reinstated to their MEF from the ESF for
TYs 1999 to 2002.29 SSA uses a variety of editing routines and other processes to
correct and post many of the wage items with name and/or SSN mismatches or other
problems. The 27 items were reinstated using about 9 routines and processes
discussed in Appendix F.

SSA’s process for updating its Human Resource Management Information System
(HRMIS)30 database with the corrected employee information obtained during the
reinstatement process needs improvement. HRMIS is a computer-based, multi-file
personnel records system designed to meet SSA’s needs for data, statistics, and
information on the characteristics of SSA workforce. We found that the personnel
records for four former SSA employees with corrected SSNs were not updated in
HRMIS. The incorrect SSNs included in HRMIS appeared to relate to transposition
errors since most were off by one digit. In all four cases, the individuals either retired or
were terminated under the incorrect SSNs. It is vital that employee personnel records
are accurate to ensure the employees received proper credit for their Government

29
   The ESF Reinstate File was not designed to capture all reinstated items, but rather captures the latest
entity in a series of reinstatements so that this information could be used in resolving similar problems in
the future. As a result, the number above undercounts the actual number of reinstatements.
30
   HRMIS serves as the database for SSA staffing, promotion plan operations, personnel research and
program evaluation, equal opportunity statistics, management information, planning and budgeting for
training, internal and external reporting, and position control.
Page 10 - The Commissioner
service as this information may be transferred to other Federal agencies or to the Office
of Personnel Management. We referred these four cases to SSA for review.

CONCLUSION AND RECOMMENDATIONS

Although only a relatively small percentage of SSA employees had wages posted to the
NWALIEN file and the ESF, SSA should be a model for the employer community and
ensure that it knows the identity and work status of its employees since they may have
access to the Agency’s programmatic and sensitive information as well as its facilities.
Therefore, we recommend SSA:

1.   Consider using the verification programs as appropriate in the (1) hiring process to
     verify employees’ identities and work-authorization status and (2) wage reporting
     process to ensure employees receive proper credit for their earnings.

2.   Make the necessary corrections to payroll, personnel, and/or Numident records for
     the cases referred during the audit.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency also provided technical comments
that we considered in preparing our final report. The full text of the Agency’s comments
is included in Appendix H.




                                              S
                                             Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Nonwork Alien File Flowchart

APPENDIX C – Scope and Methodology

APPENDIX D – Summary of SSA Employees

APPENDIX E – Employee Verification Programs

APPENDIX F – Edit Routines and Processes

APPENDIX G – Prior Audit Reports

APPENDIX H – Agency Comments

APPENDIX I – OIG Contacts and Staff Acknowledgments
                                                           Appendix A

Acronyms
DECOR           Decentralized Correspondence
DHS             Department of Homeland Security
DoB             Date of Birth
DOI             Department of Interior
EAD             Earnings After Death
EIN             Employer Identification Number
ESF             Earnings Suspense File
EVS             Employee Verification Service
FBI             Federal Bureau of Investigation
FICA            Federal Insurance Contributions Act
HRMIS           Human Resources Management Information System
IRCA            Immigration Reform and Control Act of 1986
IRS             Internal Revenue Service
MEF             Master Earnings File
NBC             National Business Center
NH              Numberholder
NWALIEN         Nonwork Alien
OIG             Office of the Inspector General
Pub. L. No.     Public Law Number
SSA             Social Security Administration
SSN             Social Security number
SSNVS           Social Security Number Verification Service
SWED            Scrambled Wage Earnings Discrepancy
TY              Tax Year
U.S.C.          United States Code
WBDOC           Wilkes-Barre Data Operations Center
YCER            Young Children’s Earnings Record
Forms/Numbers
Form I-9        Employment Eligibility Verification Form
Form I-94       Arrival/Departure Record
Form SS-5       Application for a Social Security Card
Form W-2        Wage and Tax Statement
Form W-2c       Corrected Wage and Tax Statement
“A” Number      Alien Registration Number
I-94 Number     Arrival/Departure Number
                                                                                 Appendix B

Nonwork Alien File Flowchart
                                          Determine if the
                                        reported wages are
                                                                   No
                                         greater than zero
      Nonwork Social Security
       Numbers reported on
          Wage and Tax
      Statement (Form W-2)1
                                                     Yes

                                                                           Remove the wage
                                                                            report from file
                                                                   No

                                          Determine if the
                                        individuals are “Not
                                        Authorized to Work”2

                                                  Yes
                                         Determine if the
                                       Employer Identification
                                        Numbers are valid3
                                                                    No




                                                     Yes
                                         Add to
                                        Nonwork
                                        Alien File




Note 1: The file includes Form W-2s that were validated against SSA’s Numident records as part of the
Annual Wage Reporting process.
Note 2: The Numident record includes codes (i.e. citizenship status code) that identifies whether an
individual is authorized to work in the United States.
Note 3: The Employer Identification Numbers are validated against SSA’s Employer Identification File.
                                                                      Appendix C

Scope and Methodology
To accomplish our objective, we:

•   Reviewed pertinent sections of the Social Security Administration’s (SSA) policies
    and procedures as well as other relevant Federal laws and regulations.

•   Reviewed Office of the Inspector General and Government Accountability Office
    reports and other relevant documents.

•   Interviewed SSA staff to gain an understanding of the Earnings Suspense File (ESF)
    and Nonwork Alien (NWALIEN) file.

•   For the one Employer Identification Number used by SSA during Tax Years (TY)
    1999 through 2002, obtained a data extract from SSA’s ESF, NWALIEN file, and
    Reinstate file. We then analyzed the trends in this extracted data.

•   Reviewed personnel records included in the Human Resource Management
    Information System for employees included in the NWALIEN file and ESF to
    determine current employment status, position description, and work location.

•   Reviewed and analyzed SSA’s Numident and Master Earnings File for employees
    with wages posted to the NWALIEN file to determine (1) when the employees were
    enumerated and (2) their work history.

•   Reviewed documentation related to registered users of SSA’s employee verification
    programs—Employee Verification Service, Social Security Number Verification
    Service, and the Basic Pilot.

Our audit did not include an evaluation of SSA’s internal controls over the wage
reporting process. The purpose of our review was to determine whether employees at
SSA were working under nonwork SSNs and/or SSNs that do not match the
names/Social Security numbers during TYs 1999 through 2002. We compared the
NWALIEN file data to SSA’s records and determined that the NWALIEN file data was
sufficiently reliable to accomplish our objectives. However, we did not verify each
employee's work-authorization status with the Department of Homeland Security.
Further, we did not focus our efforts on the collection of wage reporting data, nor did we
attempt to establish the reliability or accuracy of such data. The entities audited were
SSA’s Office of Earnings Operations and Administrative Systems under the Office of the
Deputy Commissioner for Systems and the Office of Personnel under the Deputy
Commissioner for Human Resources. We conducted our audit between September
2004 and July 2005 in Philadelphia, Pennsylvania. We conducted our audit in
accordance with generally accepted government auditing standards.
                                                                       Appendix D

Summary of SSA Employees
We reviewed the Nonwork Alien (NWALIEN) file and the Earnings Suspense File (ESF)
for Tax Years (TY) 1999 through 2002 to determine the number of wage items that were
related to the Social Security Administration’s (SSA) payroll and found:

•   33 employees, which related to about 86 wage items, had wages placed in the
    NWALIEN file because they were working under nonwork Social Security numbers
    (SSN) (see Table D-1).

•   61 employees, related to about 94 wage items, had wages placed in the ESF
    because they were working under SSNs that did not match the names and/or SSNs
    in SSA's records (see Table D-1).

              Table D-1: Summary of SSA Employees with Placed in the
                    NWALIEN File and ESF (Tax Years 1999 - 2002)
                                       Nonwork Alien File

        Reasons for Nonwork Wages              Wage Earners   Wage Items   Total Wages
 Used an SSN not authorized for work                  33           86      $2,604,565

 NWALIEN File Total:                                  33           86      $2,604,565
                                 Earnings Suspense File

      Reasons for Suspended Wages              Wage Earners   Wage Items   Total Wages

Special Indicators
Earnings After Death Report                           55          87          $85,871
Scrambled Wage Earnings Discrepancy                    3           4          $85,621
Sub Total:                                            58          91         $171,492

Mismatched Names & SSNs
Reported names and/or SSNs did not match
SSA’s records                                          3           3          $12,817
Sub-total:                                             3           3          $12,817
ESF Total:                                            61          94         $184,309
Source: NWALIEN file and ESF




                                             D-1
As shown in the Figure D-1, we found that the 33 employees who working under
nonwork SSNs were born in 17 different countries with the majority (18 individuals) born
in 4 countries -- Taiwan, Iran, Nigeria, and the Philippines.

                   Figure D-1: Countries of Birth for SSA Employees
                         With Earnings Under Nonwork SSNs

                               2 Earners       2 Earners

                        3 Earners
                                                                     11 Earners




                 3 Earners



                      3 Earners

                                                                  9 Earners


          Other      Taiwan       Iran     Nigeria     Philippines     Ethiopia     India
       Source: SSA Numident Records

Note: The Other category had 11 earners from 11 different countries: Afghanistan, China, Costa Rica,
Cuba, Guatemala, Haiti, Poland, Somalia, Trinidad, United Kingdom, and Venezuela.




                                                 D-2
                                                                                 Appendix E

Employee Verification Programs
The Social Security Administration (SSA) has a number of programs to assist
employers with wage reporting process. Below we discuss some of the various
programs, such as (1) Employee Verification Service (EVS), (2) Social Security Number
Verification Service (SSNVS), and (3) the Basic Pilot.

Employee Verification Service

EVS and SSNVS are SSA’s two primary verification programs made available to
employers to verify employees’ names and Social Security numbers (SSN). EVS and
SSNVS are available to employers to ensure their employees’ names and SSNs are
valid before the employer submits their Forms W-2 to SSA.1 Employers must register to
gain access to these programs.

Under EVS, requests can be submitted on magnetic media (tape, cartridge, or diskette)
or paper.2 For each employee record to be verified through the registered user process,
employers must submit three required elements: employee’s SSN, last name, and first
name. Employers can also provide optional data as well, such as date of birth and
gender. Through EVS, SSA confirms whether the name, SSN, date of birth, and gender
of an employee matches SSA’s records. As of January 2004, SSA may disclose certain
death responses to employers when the wage earner’s record indicates that they are
deceased.3

SSNVS, which was implemented nationwide in June 2005, is an on-line service that
enables employers and submitters to verify whether employees’ names and SSNs
matches the information in SSA’s records. Employers can either verify up to 10 names
and SSNs (per screen) on-line and receive immediate results or upload batch files of up
to 250,000 names and SSNs and usually receive results the next Government business
day.

Basic Pilot

The Basic Pilot is a SSA and Department of Homeland Security (DHS) joint program
whereby employers verify the employment eligibility of newly-hired employees.4 This
voluntary program helps employers determine whether an individual is eligible to work in

1
  The use of these systems is voluntary and can assist employers in eliminating common SSN reporting
errors.
2
  In addition, employers can also verify (1) up to 5 names/SSNs by calling SSA’s toll-free number for
employers and/or (2) up to 50 names/SSNs by sending a fax to an SSA field office.
3
  Under 42 United States Code (U.S.C.) § 205 SSA may not disclose certain State death information.
4
  Section 401 of the Illegal Immigration Reform and Immigrant Responsibility Act of 1996
(8 U.S.C. § 1324a).

                                                 E-1
the United States, which could help SSA avoid reporting these earnings to the Nonwork
Alien file. The President signed the Basic Pilot Program Extension and Expansion Act
of 2003 (Public Law Number 108-156) into law on December 3, 2003. This law
extended the operation of the Basic Pilot for an additional 5 years (to a total of 11 years)
and expanded the operation to all 50 States not later than December 1, 2004.

As discussed with SSA staff, the Basic Pilot involves using the information in
Government databases (SSA databases and, if needed, DHS databases) to determine
the employment eligibility of new hires. The Social Security number (SSN) and Alien
Registration Number (“A” Number)5 or I-94 Arrival/Departure Number (I-94 Number)6
are used for these checks. The employer must complete the DHS-issued Employment
Eligibility Verification Form (Form I-9) for each employee and then enter elements of this
data into the Basic Pilot within 3 days of hiring, including the employee’s SSN, name,
date of birth (DoB), and whether the new-hire indicated he/she was a U.S. citizen and, if
not the “A” Number or I-94 Number.

The system first checks the information entered against SSA’s database to verify the
name, SSN, and DoB of all newly-hired employees, regardless of citizenship. When the
Numident shows the U.S. as the place of birth for the newly-hired employee or a code
indicating the number holder is a U.S. citizen, the Basic Pilot automated system
confirms employment eligibility. If the Basic Pilot system cannot confirm employment
eligibility based on the information in SSA’s database or an “A” Number or I-94 Number
was entered, the Basic Pilot system automatically checks the data against DHS’
database.

The employer will receive notification of "SSA tentative non-confirmation" of
employment eligibility when the SSN, name, or DoB does not match the information in
SSA’s database. Also, employers will receive a "SSA tentative non-confirmation" if the
new-hire indicated he/she was a U.S. citizen and SSA’s records did not show that the
person was a U.S. citizen. The employer will receive notification of "DHS tentative non-
confirmation" of employment eligibility when DHS’ database does not show the new-hire
as authorized for employment. In these cases, the employer asks the employee
whether he/she wishes to contest the tentative non-confirmation. If contested, the
employee must contact SSA or DHS within 8 Government working days of the
notification. After the employee contacts SSA or DHS to correct the record, the
employer resubmits the query through the Basic Pilot system. If the system does not
confirm employment eligibility after the employer resubmits the query, the employer may
terminate the new-hire.


5
  The “A” number is the 8 of 9-digit number following “A” which is shown on the “green card” or
Permanent Resident Card (formerly the I-551 Alien Registration Receipt Card), the Employment
Authorization Document (I-766 and I-688B), and on certain other immigration documents and notices.
For newly admitted immigrants, the “A” number is shown on the machine readable immigrant visa affixed
to the foreign passport.
6
  The I-94 Number is the 11-digit number located on the Arrival-Departure Record (Form I-94). The Form
I-94 shows the date one arrived in the United States, the “Admitted Until” date, and the date when his/her
authorized period of stay expires.

                                                   E-2
                                                                                Appendix F

Edit Routines and Processes
As of October 2004, we found that 24 employees, representing 27 wage items, had
wages reinstated to their Master Earnings File (MEF) from the Earnings Suspense File
(ESF) for Tax Years 1999 to 2002. Social Security Administration (SSA) uses a variety
of editing routines and other processes to correct and post many of the wage items with
name and/or Social Security number (SSN) mismatches or other problems, both before
and after items are posted to the ESF. As shown in Table F-1, the 27 wage items were
reinstated using about 9 routines and processes. We found the edit known as Reinstate
from Internal Revenue Service (IRS) resolved the most wage items - six items
representing 22 percent. For this process, the IRS provides SSA a file containing
resolved mismatches so that SSA can use this information to locate the owners of
suspended items in the ESF.

                      Table F-1: Social Security Administration
                     Reinstatements for Tax Years 1999 to 2002
               Reinstatement Process             Wage Items     Percentage
       Reinstate from IRS                            6              22%
       Match to Prior Reinstatements                  4             15%
       Earnings Cross Reference Record1               4             15%
       GAP SWEEP                                      3             11%
       Earnings After Death Online                    3             11%
       Single Select                                  3             11%
       Decentralized Correspondence                  2               7%
       Ferret Operation                               1              4%
       SWEEP Operation                                1              4%
            Total Reinstated Wage Items              27            100%
      Note 1: These four records relate to two SSA employees who had wages transferred from one
      earnings record to another earnings record. As a result, these wage items were counted twice in
      the ESF Reinstates File.

SSA has taken steps over the past years to reduce the size and growth of the ESF.
Below we discuss some of the various mechanisms available to assist employers, such
as (1) various edit processes and (2) correspondences to employers and employees.

Edit Processes

SSA uses a variety of editing routines and other processes to correct and post many of
the wages items with name/SSN mismatches or other problems, both before and after
they go into the ESF. The following is a description of the various edits.




                                                F-1
•     Overnight Validation: This process identifies name/SSN mismatches on the
      reporting year's paper Wage and Tax Statement (Form W-2) before routine edits are
      performed. Any processed name/SSN mismatches go through the Single Select
      operation described below. Suspended items not corrected by Single Select are
      highlighted in a return electronic transmission from the National Computer Center to
      the Wilkes-Barre Data Operations Center (WBDOC). WBDOC technicians look at
      the image of the original Form W-2 and re-key any incorrect items. They also input
      the employee address, if available,1 to all returned items—whether corrected or
      not—for later Decentralized Correspondence (DECOR) and FERRET activities (see
      following page).

•     Single Select: This operation assumes the reported name is correct and the SSN is
      wrong. Many errors are caused when the name is correct, but there is a
      transposition error in the SSN. The operation creates "ghost" records from
      combinations of numbers in the reported SSN with the reported name. The system
      then screens these records against their related Numident records—the Numident
      file is SSA’s database of all valid SSNs. If one and only one Numident record
      matches the reported name, the item is reinstated.

•     Operation 30: This process identifies ESF items with valid SSNs and connects
      SSA's Numident records with the ESF item. It assumes the SSN is correct, but the
      name is wrong. Technical staff performs a sight comparison to review reported data
      against on-line SSA records and make judgments to accept wage items for MEF
      posting or send the data back to the ESF.

•     SWEEP: SWEEP is an electronic operation that periodically uses SSA’s latest
      system enhancements and validation rules, including the more than 20 routine edits
      used on incoming wages, to remove items from the ESF and reinstate them to wage
      earners’ MEF records.

•     GAP SWEEP: GAP SWEEP is a newly developed routine that scans earnings
      records for valid SSNs in the ESF and assesses whether yearly gaps in earnings
      exist in the MEF record and might be linked to similar earnings in the ESF.

•     Item Correction: This process allows SSA staff to correct the earnings record of an
      individual through a system called Earnings Modernization 2.8. The system is a
      computerized process for adjusting an individual’s earnings record thereby helping
      SSA establish and maintain an accurate and complete MEF. This system allows
      SSA employees to add, change, move, or delete an individual’s earnings overnight
      via on-line interactive screens. This is a paperless system—with proofs and
      rationale recorded electronically after an initial inspection by an SSA employee(s).




1
    SSA correspondence would use the employer address when the employee address is not available.


                                                  F-2
•     Reinstatements from the IRS: While SSA is attempting to resolve mismatched
      names and SSNs within the ESF; IRS is performing a similar process. The IRS
      provides SSA a file containing resolved mismatches so that SSA can use this
      information to locate the owners of suspended items in the ESF.

•     SSA/IRS Earnings Reconciliation Process: The SSA/IRS earnings reconciliation
      process compares employee wage data submitted to the IRS to wage data
      submitted to SSA. Employers, their representatives, third parties, and agents submit
      wage data to both agencies. When more wages are reported to the IRS than to
      SSA, SSA is concerned that employees' earnings are not recorded correctly in the
      Agency's records. SSA examines these cases and attempts to resolve any
      difference without contacting the employer. When this effort is unsuccessful, SSA
      sends a notice and questionnaire to the employer, requesting information to resolve
      the case. If SSA does not receive a response within 45 days, the employer is sent a
      second notice. When no response is received after the second notice, the IRS is
      responsible for contacting the employer and may impose penalties, if necessary.2

•     FERRET: FERRET is a periodic electronic operation that uses SSA and IRS
      records to make reinstatements from the ESF to wage earners’ records. WBDOC
      creates the FERRET file—basically an address file—from the nonresponder DECOR
      file. The FERRET file is processed against IRS tax returns for matches to address
      data. Names or parts of names are then propagated from the IRS file to create
      possible reinstatements. These possible matches are then screened using SSA’s
      SSN validation process.

•     New Edits: The Agency has also modified its automated processes to improve the
      identification of numberholders (NH) related to items in the ESF. SSA stated the
      new processes use information stored on the earnings and benefits records whereas
      previous internal edits only used the names and SSNs related to the suspended
      wages.

Correspondence to Employers and Employees

SSA sends out millions of letters to employers and employees each year. The four
main letters sent to employers and employees are (1) DECOR, (2) Educational
Correspondence (EDCOR), (3) Earnings After Death (EAD), and (4) Young Children’s
Earnings Record (YCER).

•     DECOR: When wage items reach the ESF, SSA’s system generates notices to
      employees and employers. The main purpose of DECOR notices is to query
      employees and employers to resolve SSN and/or name discrepancies. While these
      notices are usually mailed to employees, letters are mailed to an employer if there is
      no address for the employee. SSA reviews the returned DECOR notices, validates
      the information provided, and if appropriate, removes the wage item from the ESF

2
    26 United States Code § 6721 (2003).


                                              F-3
    for posting to an individual’s MEF record.3 If individuals do not respond to DECOR
    notices, their information goes through the FERRET operation.

•   EDCOR: When SSA processes a Form W-2 report with a name and/or SSN that
    does not match SSA’s records, it sends a notice to the employer. These notices
    state that SSA received wage items that could not be validated and list up to
    500 SSNs in an attachment, but do not provide names. SSA requests that
    employers file corrected Form(s) W-2 to correct the error(s). The notices sent to
    employers also specify that mismatches do not imply that incorrect information was
    intentionally provided and that the letter is not a basis, in and of itself, for an
    employer to take any adverse action against an employee.

    SSA is now sending notices to all employers who submitted 10 or more Forms W-2
    that SSA could not process, and the mismatched forms represent more than
    0.5 percent of the total Forms W-2 reported to SSA.

•   EAD: SSA also has processes in place to detect unusual earnings reports—such as
    instances where earnings relate to someone recorded as deceased on SSA's
    records. Under the EAD process, when a date of death is present on the Numident,
    all earning items reported for TYs after the year of death are placed in the ESF. The
    earnings are also transmitted to an EAD investigative file so that notices can be
    printed and mailed to employers and/or earners. SSA sends EAD notices to
    employers and employees. Employer responses are returned to SSA for
    processing. If the employer states the individual was working for them, SSA sends a
    notice to the employee requesting that he or she visit a field office to correct his or
    her earnings information. At the field office, staff interviews the individual and
    verifies his or her identification. If the evidence appears valid, SSA personnel
    reinstate the wages to the proper MEF account. If the employer states the wage
    earner is deceased, SSA informs the employer to refund the employee's share of the
    Social Security taxes to the employee's estate or next of kin, and the relevant wages
    will remain in the ESF. We reviewed the EAD process in a prior audit report.4

•   YCER: Another unusual earnings pattern monitored by SSA relates to young
    earners. Under the YCER process, SSA checks the Date of Birth (DoB) for the SSN
    on each earnings report. If a DoB indicates that the NH of the SSN is a child under
    the age of 7, the earnings will be placed into the ESF. When the Form W-2 reporting
    process is complete, an YCER investigate file is generated to determine whether the
    earnings belong to the reported SSN; i.e. a child under the age of 7. SSA sends
    YCER notices to employers and employees. Employer responses are returned to
    SSA for processing. If the employer states the NH’s SSN, name and DoB agree
    with SSA’s records, the wages are reinstated to the NH. If the employer states the
    NH’s name and SSN are the same as SSA’s records, but the DoB is different, a form

3
  SSA Office of the Inspector General (OIG), Effectiveness of the Social Security Administration’s
Decentralized Correspondence Process (A-03-01-11034), July 2002.
4
  SSA OIG, Effectiveness of the Social Security Administration’s Earnings After Death Process
(A-03-01-11035), August 2002.


                                                   F-4
is sent to the NH advising him or her to contact the local SSA office to correct the
discrepancy. If the employer states the name and/or SSN is different from SSA’s
records, the information is further researched. If the employer does not return the
form or states that the NH of the SSN did not work for them, a letter is sent to the NH
of the SSN asking him or her to contact the local SSA field office.




                                        F-5
                                                                   Appendix G

Prior Audit Reports

       Social Security Administration, Office of the Inspector General
    Reports Related to the Earnings Suspense File and Nonwork Alien File
  Common
Identification                                                         Date
   Number                         Report Title                        Issued
                 Unauthorized Work Social Security Numbers at
A-03-05-25127                                                      September 2005
                 the Department of Defense
                 Usefulness of Decentralized Correspondence in
A-03-05-25007                                                      September 2005
                 Focusing Employer-Assistance Activities
                 Department of Defense Wage Items in the
A-03-04-14041                                                       March 2005
                 Earnings Suspense File
                 Profile of the Social Security Administration’s
A-14-03-23071                                                      September 2003
                 Non-Work Alien File
                 Congressional Response Report: Social
A-03-03-23053    Security Administration Benefits Related to        March 2003
                 Unauthorized Work
                 The Social Security Administration’s Processing
A-03-02-22068    of Internal Revenue Service Overstated Wage        March 2003
                 Referrals
                 Congressional Response Report: Status of the
A-03-03-23038    Social Security Administration’s Earnings         November 2002
                 Suspense File
                 The Social Security Administration’s Employee
A-03-02-22008                                                      September 2002
                 Verification Service for Registered
                 Effectiveness of the Social Security
A-03-01-11035                                                       August 2002
                 Administration’s Earnings After Death Process
                 Effectiveness of the Social Security
A-03-01-11034    Administration's Decentralized Correspondence       July 2002
                 Process
                  Appendix H

Agency Comments
                                        SOCIAL SECURITY
MEMORANDUM


Date:       February 22, 2006                                                   Refer To: S1J-3

To:         Patrick P. O'Carroll, Jr.
            Inspector General

From:       Larry W. Dye /s/
            Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Report, "Suspended and Nonwork Wages in Social
            Security Administration’s Payroll" (A-03-05-15087)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report’s
           recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                        H-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “SUSPENDED AND NONWORK WAGES IN THE SOCIAL SECURITY
ADMINISTRATION’S PAYROLL” (A-03-05-15087)

Thank you for the opportunity to review and provide comments on this draft report. The Agency
agrees that SSA serves as a model for the employer community and that we should know the
identity and work status of our employees.

Recommendation 1

Consider using the verification programs as appropriate in the: 1) hiring process to verify
employees’ identities and work-authorization status; and 2) wage reporting process to ensure
employees receive proper credit for their earnings.

Comment

We agree. SSA will use the Numident record to verify that all SSA new hires’ names and Social
Security numbers (SSN) match the information in SSA’s records. By comparing new hires’
information to SSA’s records, SSA will be conducting the same verification routine for the
Agency’s own employees as the Agency offers to other employers.

SSA currently verifies the work authorization of every SSA new hire by obtaining proof of U.S.
citizenship because an individual must be a U.S. citizen to be authorized to work as a Federal
employee. However, it is possible that a new hire, who is a naturalized citizen and who presents
valid documentation of such status, may have an SSN that was originally assigned as a nonwork
number. In many such cases, the individual inadvertently failed to notify the local Social
Security office of the change in U.S. citizenship and work authorization status when he or she
became a citizen. This does not preclude the individual from being authorized to work.
However, SSA will use the Numident record as part of our suitability determination process to
verify that newly hired naturalized citizens have updated their Social Security records in order to
obtain a SSN card that is valid for work purposes. If we determine that the individual has a
nonwork SSN, we will advise the individual to report to the local Social Security office to report
the change in citizenship and work authorization status.

Regarding the wage reporting process, we defer to the Department of the Interior (DOI) as DOI
is our payroll provider and we have no direct control over the manner in which they process
wage reporting. However, we will ask that they take this recommendation under consideration.

Recommendation 2

Make the necessary corrections to payroll, personnel, and/or Numident records for the cases
referred during the audit.




                                                H-2
Comment

We agree. All but 5 of the referred cases have been resolved and the necessary corrections to
payroll, personnel and Numident records have been made. We have contacted the servicing
personnel offices for the remaining 5 cases requiring changes to personnel records. We will
follow-up with those offices by the end of February 2006.

[In addition to the comments above, SSA provided technical comments which have
been addressed, where appropriate, in this report.]




                                              H-3
                                                                        Appendix I

OIG Contacts and Staff Acknowledgments
OIG Contacts

  Walter Bayer, Director, Philadelphia Audit Division, (215) 597-4080

  Cylinda McCloud-Keal, Audit Manager, (215) 597-0572

Acknowledgments

In addition to those named above:

  Virginia Montelpare, Auditor-in-Charge

  Richard Devers, IT Specialist

  Annette DeRito, Writer/Editor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-03-05-15087
                            DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
